OIG Audit Report GR-40-00-004
Office of Community Oriented Policing Services Grantsto the Pineview, Georgia, Police Department
Audit Report GR-40-00-004
January 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two Universal Hiring Program (UHP) grants awarded by the Office of Community Oriented Policing Services (COPS) to the Pineview, Georgia Police Department (grantee).  The purpose of the grants was to enhance community policing.  COPS awarded the grantee $81,449 to hire one full-time and one part-time police officer.  COPS awarded the grantee a supplemental grant of $81,450 to hire another full-time and part-time officer.  On December 30, 1997, the grantee declined the supplemental UHP grant .  However, as of March 29, 1999, the Office of Justice Programs financial records showed the grant was still obligated, and we recommend it be deobligated and put to better use. 
	
	We reviewed the grantee's compliance with seven essential grant conditions.  We found weaknesses in six of the areas as identified below.  As a result, we question $24,532 of the $29,988 reimbursed to the grantee, and we recommend the remaining portion of awarded funds ($51,461) be put to better use.   We found the grantee: 

Did not budget for locally funded officers above the number of grant funded officers after receiving the UHP grant. 

	Did not maintain its force of two full-time officers during the grant period. 

	Did not meet the 25 percent local match requirement, because funds previously budgeted for local law enforcement were used as the local match.

	Had not made a sincere and legitimate attempt to retain the grant funded officers after the grant expires.

	Did not request approval from COPS to significantly deviate from the community policing activities contained in its grant application.

	Did not submit several status reports or submitted reports that were inaccurate or late.
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.